No, 21-202

 

IN THE
Supreme Court of the United States

MYLAN LABORATORIES LTD.,
Petitioner,

Vv.

JANSSEN PHARMACEUTICA, N.V.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit

BRIEF OF AMICUS CURIAE INTEL CORP.
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,994 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 13, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
